July 28, 2008

WALTER O’TORMEY
VICE PRESIDENT, ENGINEERING

SUBJECT: Audit Report – Mail Processing Equipment Spare Parts:
         Plant Stockrooms (Report Number DA-AR-08-008)

This report presents the results of our self-initiated audit of mail processing equipment
(MPE) spare parts in plant stockrooms (Project Number 08YG019DA000). Our
objective was to determine whether Postal Service plant stockrooms maintained excess
MPE spare parts, which is a financial risk. Click here to go to Appendix A for additional
information about this audit.

Conclusion

Postal Service plant stockrooms are maintaining excess MPE spare parts. As of
February 2008, the value of excess parts was approximately $159 million, or 49 percent
of the total inventory. This condition existed because maintenance personnel ordered
more parts than the recommended levels. Maintenance personnel stated they ordered
excess parts to prevent equipment downtime. Specifically, they did not trust the
inventory system and were concerned that items might not arrive from the Topeka
Material Distribution Center (MDC) within established shipping times. Excess parts
were also maintained for emergencies and other unforeseen situations. In addition,
maintenance personnel stated they were not periodically disposing of excess MPE
spare parts because they did not have enough personnel or available workhours to
redistribute, recycle, and dispose of the parts.

As a result, the Postal Service incurred unnecessary costs of approximately $30 million
during the 2 years ending February 2008 and can avoid costs of another $30 million
over the next 2 years.

Click here to go to Appendix B for our detailed analysis of this topic.
Mail Processing Equipment Spare Parts:                                 DA-AR-08-008
 Plant Stockrooms


We recommend the Vice President, Engineering:

1. Update policy to prevent approval authority for orders that exceed the inventory
   system’s recommended levels from being delegated to nonsupervisory personnel.

We recommend the Vice President, Engineering, in coordination with the Deputy
Postmaster General and Chief Operating Officer, and Senior Vice President for
Operations:

2. Require each Vice President, Area Operations, to submit an inventory reduction plan
   if the area’s spare parts on hand exceed the recommended inventory level.

We recommend the Vice President, Engineering, in coordination with the Vice
President, Supply Management:

3. Require material management specialists to assist maintenance managers in
   redistributing, recycling, and disposing of excess mail processing equipment spare
   parts.

Management’s Comments

Management agreed with the findings, recommendations, and monetary impact and is
taking the following corrective actions:

   •   In response to recommendation 1, management will limit authorization to
       override the recommended order quantity to executive and administrative salary
       schedule personnel only.

   •   In response to recommendation 2, management will issue a policy letter
       requesting each Vice President, Area Operations, to submit an inventory
       reduction plan.

   •   In response to recommendation 3, management will develop a plan to provide
       maintenance managers assistance with inventory management.

Management accepted, with reservation, the value of the excess inventory and
monetary impact stated in the report. Management will notify us if a different value of
excess inventory is identified through implementation of the recommendations.

Click here to go to Appendix C for management’s comments in their entirety.




                                            3
Mail Processing Equipment Spare Parts:                                DA-AR-08-008
 Plant Stockrooms



Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations in the report. The actions taken should
correct the issues identified.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel A. Castillo, Director,
Engineering, or me at (703) 248-2100.


    E-Signed by Darrell E. Benjamin, Jr
    VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Patrick Donahoe
    Anthony M. Pajunas
    Susan Brownell
    Ed Gamache
    Katherine S. Banks




                                           4
Mail Processing Equipment Spare Parts:                                                        DA-AR-08-008
 Plant Stockrooms



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Topeka MDC in Topeka, Kansas, purchases stocks and manages repairable and
consumable mail processing spare parts to support equipment maintenance.
Maintenance stockroom personnel maintain an inventory of parts and supplies and
order replacements of stocked and non-stocked inventory items to control the flow and
accountability of material, minimize equipment breakdowns, and expedite repairs and
routine work.

Maintenance and plant managers at each site are accountable for the inventory stored
in their facilities. Under the direction of local maintenance managers, stocking clerks
must maintain inventory levels to meet the demand of the maintenance, repair, and
operations activities. Clerks typically replenish orders through the Enhanced Spare
Parts Initiative (eSPIN) system,1 which uses data from eMARS2 and the Material
Distribution and Inventory Management System (MDIMS)3 to make recommendations to
buy, repair, and transfer equipment. Since its full implementation at the end of calendar
year 2007, eSPIN has recommended transfers of stock from one field site to another if
one site has excess stock and another site has a need. To avoid the cost of procuring
unnecessary parts, eSPIN checks for excess parts before it places a new procurement
order. Parts personnel can adjust the forecasted need for items at specific sites and
field maintenance personnel are able to view the stock that is on hand at the Topeka
MDC.4

Oversupply, or excess stockroom inventory, is defined as any serviceable material
stocked and on order that is greater than the installation’s needs and the established
requisitioning objective for the part. As of February 14, 2008, the Postal Service
maintained parts valued at over $321.1 million in plant stockrooms.

Various Postal Service offices share responsibility for inventory management of MPE
spare parts. The Vice President, Engineering, defines and develops policies and plans
for the life-cycle support of major postal equipment and systems, and provides
maintenance support of mail processing equipment. The Deputy Postmaster General
and Chief Operating Officer is responsible for the national collection, sorting and
distribution, transportation, and delivery of all mail under the control of the Postal
Service through the Vice Presidents, Area Operations, field managers, and
1
  The eSPIN system is a commercial off-the-shelf system that plans, forecasts, and optimizes spare part inventory for
field sites using the Electronic Maintenance Activity Reporting and Scheduling System (eMARS). The eSPIN system
is used to forecast warehouse stock levels, largely based on historical demand data.
2
  The eMARS is an automated system for maintenance management that includes spare parts inventory
management.
3
  MDIMS is a real-time inventory system used to perform distribution for a catalog of spare parts from depot locations
to plant stockrooms.
4
  The Topeka MDC, which contains approximately 950,000 square feet, warehouses and distributes 26,000 MPE
spare parts to all postal facilities. Facilities must request authorization to return materials to the Topeka MDC.




                                                          5
Mail Processing Equipment Spare Parts:                                                         DA-AR-08-008
 Plant Stockrooms


postmasters. The Senior Vice President, Operations, is responsible for providing
corporate strategic direction and program support in operations planning, field
operations support, network operations management, and labor relations. In addition,
the Vice President, Supply Management, is responsible for establishing and maintaining
national material management policies, programs, and procedures, which are published
in Handbook AS-701, Material Management, and other Postal Service directives on
purchasing and materials.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether Postal Service plant stockrooms maintained
excess MPE spare parts. To fulfill our objective, we compiled the excess spare part
balance as of February 2008 from part values identified and calculated in the eSPIN
inventory management program. To assess the causes for excess spare parts, we
interviewed and surveyed 28 District Material Management Specialists (DMMS)5 and
maintenance stockroom personnel at 27 plants. We also met with the Manager,
Maintenance Policies and Programs, and the Manager, Supply Management Programs,
at Postal Service Headquarters.

To calculate monetary impact, we extracted data from eMARS and eSPIN and
considered the financial implications of excess spare parts value to the time value of
money6 and carrying costs7 established by the Postal Service. We performed
reasonableness tests of eMARS (the basis of eSPIN) and found the data sufficiently
reliable to satisfy our audit objective.

We conducted this performance audit from April through July 2008 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations
and conclusions with management officials on June 2, 2008, and included their
comments where appropriate.




5
  DMMSs are responsible for overseeing capital, expendable, and sensitive property procedures in all Postal Service
facilities within their district. This responsibility includes monitoring activities, training, and providing support to
maintenance managers.
6
  Postal Service Memo: Decision Analysis Report Factors/Cost of Borrowing/New Facility Start-up Costs Update,
dated December 6, 2007.
7
  xxxxxx xxxxxxx xxxxxxxxx xxx x xxxxxxxxxxxx xxxxxxxx xxxxxxxx xxxxxxxxx xxxxxxxx xxxx xx x xxxxxxx xxxxxx xxx
xxxxxxxxxx.




                                                           6
   Mail Processing Equipment Spare Parts:                                        DA-AR-08-008
    Plant Stockrooms


   PRIOR AUDIT COVERAGE

                                      Final
                  Report             Report       Monetary
Report Title      Number              Date         Impact                    Report Results
Inventory       AC-AR-03-007      September 30,   $131 million   As of November 2002, spare parts
Management –                      2003                           inventory levels in the Postal Service’s
Maintenance                                                      maintenance stockrooms exceeded
Stockrooms                                                       demand by a projected $131 million.
                                                                 Postal Service personnel routinely ordered
                                                                 more parts than the inventory system’s
                                                                 recommended levels; did not perform
                                                                 required annual reviews to eliminate
                                                                 excess parts; and did not consistently
                                                                 classify critical parts.




                                                   7
Mail Processing Equipment Spare Parts:                                                     DA-AR-08-008
 Plant Stockrooms


                               APPENDIX B: DETAILED ANALYSIS

Value of Excess Mail Processing Equipment Spare Parts

As of February 2008, the value of excess parts was approximately $159 million8
(49 percent of the inventory). Chart 1 below categorizes the excess spare part value by
Postal Service areas. The Western Area maintained the highest value of excess spare
parts.

                          Chart 1. Excess Spare Parts Value by Area

                                Area                Excess Spare Part Value
                          Western                                $27,240,823
                          Southeast                               20,327,295
                          Great Lakes                             19,573,646
                          New York Metro                          17,998,923
                          Eastern                                 17,785,779
                          Southwest                               15,149,126
                          Capital Metro                           14,140,068
                          Pacific                                 13,575,366
                          Northeast                               12,920,259
                                Total                          $158,711,284

Causes for Excessive Mail Processing Equipment Spare Parts

Our field visits and survey of 27 plants showed that maintenance personnel continued to
order more parts than the inventory system’s recommended levels and did not dispose
of excess MPE spare parts.

Replenishment Orders

Maintenance personnel ordered more parts than the inventory system’s recommended
quantities, resulting in excess quantities on hand. eSPIN uses a proactive forecasting
model that calculates reorder points and quantities. As a result of a prior OIG audit,
system controls such as management approval were implemented to prevent
individuals from ordering above recommended stock levels. However, management
and nonsupervisory maintenance personnel with delegated authority continued to
approve the reorder of excess spare parts. Maintenance managers stated they ordered
extra parts to prevent equipment downtime. Specifically:




8
 Some parts reported as excess may be removed by designating them as critical parts. If a part is designated as
critical, it will not be listed as an excess spare part.




                                                        8
Mail Processing Equipment Spare Parts:                                                  DA-AR-08-008
 Plant Stockrooms


    •   Managers did not trust the inventory system’s recommended stock levels and
        were concerned that items might not arrive from the Topeka MDC within
        established shipping times.

    •   Items were deliberately stocked for emergencies and other unforeseen
        situations.

Parts Available for Redistribution or Disposal

Maintenance managers stated that a significant portion of the spare parts were either
obsolete or not needed because:

    •   The machines requiring the spare parts had been removed.

    •   Too many parts were included in spare part kits provided by machine
        manufacturers when the equipment was deployed.

DMMSs, with assistance from specialists at the Material Service Centers (MSC),9 are
responsible for reviewing excess spare parts and for providing training and technical
assistance in the redistribution or disposal of inactive assets. However, the local
maintenance manager has primary responsibility for stockroom inventory management.
Handbook AS-701 details procedures for managing excess spare parts. Procedures
include the following:

    •   Redistribution of parts from one postal installation to another (Handbook AS-701,
        part 631).

    •   Return of centrally stocked items to the Topeka MDC. The Topeka MDC will not
        accept items unless they are new, properly marked, in original packaging at full
        carton quantities, and at least $50 in value. The appropriate item manager
        evaluates all requests for return to determine which items are authorized for
        return (Handbook AS-701, part 633.1).

    •   Return of items to the local vendor that furnished them (Handbook AS-701,
        part 633.1).

    •   Disposal of obsolete parts (Handbook AS-701, chapter 6).

Our survey of 28 DMMSs showed that most were helping maintenance personnel
identify excess MPE spare parts. However, stockroom managers were not
redistributing, recycling, and disposing of excess MPE spare parts. DMMSs indicated

9
 Each of the four MSCs is staffed with a supply management specialist team leader and three material management
specialists. The MSCs provide direct material management guidance and support to the DMMSs and cross-functional
support to all Postal Service material management activities within their service areas.




                                                       9
Mail Processing Equipment Spare Parts:                                                       DA-AR-08-008
 Plant Stockrooms


that in some cases, stockroom managers did not have enough personnel or available
workhours to reduce the number of spare parts. In addition, DMMSs stated that they
were not authorized to reduce excess spare parts; they believed this was the
maintenance manager's responsibility.

Impact of Maintaining Excessive Spares

Reduction of excess spare parts will yield significant savings by avoiding the cost of
money (approximately 4.5 percent of inventory value) and carrying costs of excess
inventory (approximately 5 percent of inventory value). As shown in Chart 2, excess
spare parts valued at approximately $159 million10 cost the Postal Service
approximately $30 million for the 2-year period ending February 14, 2008. If
uncorrected, the cost for the next 2 years will be approximately $30 million, for a total
monetary impact of $60 million.

                  Chart 2. Calculation of Questioned and Avoidable Costs

                                                Monetary Impact

                     Questioned Costs
Total excess MPE spare parts in plant stockrooms as of                             $158,711,284
February 14, 2008
Estimated cost of money (4.5 percent) and cost to carry                              9.5 percent
excess inventory (5 percent)
Number of years Questioned Costs claimed (February 15,                                     2
2006, through February 14, 2008)
Total Questioned Cost                                                                                   $30,155,144

           Funds Put to Better Use (Avoidable)
Total excess MPE spare parts in plant stockrooms as of                             $158,711,284
February 14, 2008
Estimated cost of money (4.5 percent) and cost to carry                              9.5 percent
excess inventory (5 percent)
Number of years Funds Put to Better Use claimed                                            2
(February 15, 2008, through February 14, 2010)
Total Funds Put to Better Use                                                                           $30,155,144

Total Monetary Impact                                                                                   $60,310,288




10
   It is estimated that a portion of parts reported as excess can be removed by modifying the formula used by eSPIN
to compute the number of excess parts and by redesignating some parts as critical parts. More precise identification
of excess parts will assist management in controlling spare parts inventory.




                                                         10
Mail Processing Equipment Spare Parts:                     DA-AR-08-008
 Plant Stockrooms


                       APPENDIX C. MANAGEMENT’S COMMENTS




                                         11
Mail Processing Equipment Spare Parts:        DA-AR-08-008
 Plant Stockrooms




                                         12
